               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Fiscal Year 2012 Financial Testing
     Compliance Oversight Continuous
        Detached Mail Unit Reviews


         Management Advisory Report




                                              February 4, 2013

Report Number FT-MA-13-007
                                                                         February 4, 2013

                                                    Fiscal Year 2012 Financial Testing
                                                    Compliance Oversight Continuous
                                                           Detached Mail Unit Reviews

                                                           Report Number FT-MA-13-007



BACKGROUND:                                    overall audit opinions on the Postal
The Postal Accountability and                  Service’s financial statements and
Enhancement Act of 2006 required the           internal controls over financial reporting.
U.S. Postal Service to comply with
Section 404 of the Sarbanes-Oxley Act ,        WHAT THE OIG FOUND:
and report on the effectiveness of the         We observed the Financial Testing
agency's key internal controls over            Compliance group conducting tests at
financial reporting. The Postal Service        18 of 153 sampled sites. We determined
established the Financial Testing              that Financial Testing Compliance
Compliance group to test these key             analysts properly tested, documented,
financial controls at postal units.            and reported their examination of key
                                               Sarbanes-Oxley Act reporting controls
This report addresses key financial            related to mail verification and
control testing related to mail verification   acceptance at all 18 sites we observed.
and acceptance at detached mail units
operating in a continuous environment.         WHAT THE OIG RECOMMENDED:
Detached mail units are Postal Service         We did not identify any exceptions;
work areas or offices located in a             therefore, this report does not contain
business mailer's facility. In a               recommendations.
continuous detached mail unit
environment, the final postage                 We communicated the results of our
statements are presented after mail            observations to the independent public
acceptance and verification.                   accounting firm and Postal Service
                                               management throughout the year. The
The overall objective of our review was        firm used the information to support its
to evaluate whether the Financial Test         opinions on the fiscal year 2012 Postal
Compliance group properly tested,              Service financial statements and
documented, and reported their                 controls over continuous detached mail
examination of key SOX financial               unit reporting.
reporting controls related to mail
verification and acceptance at                 Because we made no
continuous detached mail units. We             recommendations, management chose
conducted this review in support of the        not to respond formally to this report.
independent public accounting firm’s
reliance on management’s testing and           Link to review the entire report
February 4, 2013

MEMORANDUM FOR:           TIMOTHY F. O’REILLY
                          VICE PRESIDENT, CONTROLLER




FROM:                     John E. Cihota
                          Deputy Assistant Inspector General
                           for Financial and Systems Accountability

SUBJECT:                  Management Advisory Report – Fiscal Year 2012 Financial
                          Testing Compliance Oversight Continuous Detached Mail
                          Unit Reviews (Report Number FT-MA-13-007)

This report presents the results of our review of the U.S Postal Service’s Financial
Testing Compliance Oversight work at continuous detached mail units (Project Number
12BD005FI000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millet, director,
Finance, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Julie S. Moore
    Stephen R. Phelps
    Janet F. Meddick
    Corporate Audit and Response Management
FY 2012 Financial Testing Compliance Oversight                                                                     FT-MA-13-007
 Continuous Detached Mail Unit Reviews



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Appendix A: Additional Information ................................................................................. 2

   Background ................................................................................................................. 2

   Objective, Scope, and Methodology ............................................................................ 2

   Prior Audit Coverage ................................................................................................... 4
FY 2012 Financial Testing Compliance Oversight                                                          FT-MA-13-007
 Continuous Detached Mail Unit Reviews



Introduction

This report presents the overall results of our fiscal year (FY) 2012 Financial Testing
Compliance (FTC) Oversight Reviews for detached mail units operating in a continuous
environment (continuous DMU) (Project Number 12BD005FI000). We conducted these
oversight reviews to support the independent public accounting (IPA) firm’s reliance on
U.S. Postal Service’s management testing of Sarbanes-Oxley Act (SOX) key financial
controls and to provide increased focus on the remediation of control failures in the field.
Our overall objective was to evaluate whether the FTC group properly tested,
documented, and reported their examination of key SOX financial reporting controls
related to mail verification and acceptance at continuous DMUs. This review addresses
financial risk. See Appendix A for additional information about this audit.

DMUs are Postal Service work areas or offices located in a business mailer's facility. In
a continuous DMU environment, the final postage statements are presented after mail
acceptance and verification.

Conclusion

We observed the FTC group conducting tests and reviewed their documented results at
18 of 153 sampled sites during Postal Quarters1 (PQ) 2 through 4 in FY 2012. We found
that FTC analysts properly tested, documented, and reported their examinations of key
SOX financial reporting controls related to mail verification and acceptance at all
sampled continuous DMUs. We did not conduct observations during PQ 1 because the
FTC group was updating their test program and did not begin continuous DMU testing
until PQ 2.

We communicated our oversight results to management via weekly discussions and by
issuing quarterly interim reports. We also communicated our results to the IPA firm via
weekly discussions and quarterly capping spreadsheets. The IPA firm used the
information to support its opinion on FY 2012 Postal Service financial statements and
controls over financial reporting. We did not identify any exceptions; therefore, this
report does not contain recommendations. As a result, management chose not to
respond formally to this report. (See Appendix A, Table1, for the list of test sites we
observed and interim reports issued.)




1
  A Postal Quarter is an accounting division of the fiscal year that consists of 3 monthly accounting periods that are
based on calendar months. Postal Quarter 1 – October 1 through December 31, 2011; Postal Quarter 2 – January 1
through March 31, 2012; Postal Quarter 3 – April 1 through June 30, 2012; and Postal Quarter 4, July 1 through
September 30, 2012.
                                                           1
FY 2012 Financial Testing Compliance Oversight                                                         FT-MA-13-007
 Continuous Detached Mail Unit Reviews


                                 Appendix A: Additional Information

Background

The Postal Accountability and Enhancement Act of 2006 requires the Postal Service to
comply with Section 404 of SOX. To comply with Section 404 requirements, the Postal
Service must report on the effectiveness of the agency’s internal controls over financial
reporting. It must submit an annual assessment to the Postal Regulatory Commission,
who monitors and manages the Postal Service’s compliance with SOX.

This report addresses key financial control testing at DMUs operating in a continuous
environment related to mail verification and acceptance. DMUs are Postal Service work
areas or offices located in a business mailer's facility. In a continuous DMU
environment, the final postage statements are presented after mail acceptance and
verification. To participate in on-site acceptance, the mailer/mailing agent must agree to
establish a secure, safe working environment for business mail entry unit employees.
This normally includes an office or work location within view of the shipping dock.

Key internal controls over financial reporting for continuous DMUs include revenue
completeness assurance by testing mail acceptance initial and in-depth mail preparation
verifications, mail check-in procedures, postage statement completeness, reconciling
mail and hardcopy postage statements to supporting documentation, and reconciliation
of the finalized postage statement. The Postal Service uses the PostalOne! system2 to
process postage statements and to record and track trust fund account information for
authorized mailers.

Objective, Scope, and Methodology

Our overall objective was to evaluate whether the FTC group properly tested,
documented, and reported their examination of key SOX financial reporting controls
related to mail verification and acceptance at continuous detached mail units. We
conducted these oversight reviews in support of the IPA firm’s reliance on
management’s testing and overall audit opinions on the Postal Service’s financial
statements and internal controls over financial reporting.

To accomplish our objective, we observed FTC staff conducting key financial controls
that included initial and in-depth mail preparation verifications, the mail check-in
procedures, postage statement completeness, reconciling mail and hardcopy postage
statement to supporting documentation and reconciliation of the finalized postage
statement at 18 randomly selected sites. We also determined whether the FTC group
provided supporting documentation for the work performed. We issued interim reports
each postal quarter to communicate the results of our reviews. Table 1 shows the
18 reviews we observed by Postal Quarter.


2
  PostalOne! is an integrated electronic system that records mailing transactions, receives payments and simplifies
record keeping and the retrieval of mailing data.

                                                          2
FY 2012 Financial Testing Compliance Oversight                                     FT-MA-13-007
 Continuous Detached Mail Unit Reviews


            Table 1. Number of OIG Oversight Reviews of FTC SOX Testing

                         OIG Oversight Review of FTC Testing
                DMU Site               Report Number       Report Date              Postal
                                                                                    Quarter
   Quad Graphics; Pewaukee, WI                  FI-MA-12-010     June 5, 2012         2
   RR Donnelley Catalog Module;
    Lancaster, PA
   RR Donnelley Response
    Marketing; Green Bay, WI
   North America Mailing Services;
    El Paso, TX
   Pitney Bowes Presort Services
    Incorporated Group; Los
    Angeles, CA
   Broadridge Financial Solutions,
    Incorporated; Farmingdale, NY
   Print and Mailing Solutions;                 FI-MA-12-015   August 30, 2012        3
    Benbrook, IL
   RR Donnelley Response
    Marketing; DePere, WI
   DST Output; Kansas City, MO
   Barton and Cooney; Trenton, NJ
   Metro Group; Mount Pleasant,
    IA
   Pitney Bowes Presort Services
    Incorporate Group; Compton,
    CA
   RR Donnelley Response
    Marketing; Warsaw, IN
   First Data Resources; Omaha,
    NE
   Affiliated Computer Services;                FT-MA-13-003   November 1, 2012       4
    Erlanger, KY
   Quad Graphics Incorporated;
    Oklahoma City, OK
   RR Donnelley; Bolingbrook, IL
   Quad Graphics Incorporated;
    Thomaston, GA
Source: OIG analysis.

We conducted this review from January 2012 through February 2013 in accordance
with the Council of the Inspectors General on Integrity and Efficiency, Quality Standards
for Inspection and Evaluation. We provided a draft copy of this report to management
on January 2, 2013, and, because we did not make any recommendations,
management chose not to respond formally to this report.


                                                    3
FY 2012 Financial Testing Compliance Oversight                                 FT-MA-13-007
 Continuous Detached Mail Unit Reviews


We assessed the reliability of computer-generated data by verifying the data to source
records to determine whether Postal Service revenue was accurately recorded.
Specifically, we observed FTC analysts use PostalOne! reports during testing and we
verified the reliability of PostalOne! by comparing report data to the postage payments
source documentation. We determined that the data were sufficiently reliable for the
purposes of this report.

Prior Audit Coverage

                                                       Final Report        Monetary
         Report Title              Report Number           Date             Impact
Fiscal Year 2010 Quality of         FF-MA-11-001         1/3/2011            None
Postal Service Financial
Testing and Compliance
Results
Report Results:
The FTC group did not always report all exceptions they identified during their
reviews, causing their results to not always be consistent with the OIG’s results.
We also noted other working paper documentation issues, such as the FTC group
not providing all sampling methodology documentation to the OIG; however, this
did not affect our ability to determine if FTC group’s and the OIG’s results were
consistent. Most of the issues we identified were in reviews the FTC group
conducted early in their testing schedule. We did not make any recommendations
in the report but provided our observations to the IPA firm and Postal Service
management throughout the year.

Fiscal Year 2011 Financial           FI-MA-12-003           1/20/2012          None
Testing Compliance
Oversight Reviews
Report Results:
The FTC group made significant improvements in their testing of key SOX financial
reporting controls in FY 2011. However, opportunities exist to improve the quality of
conducting tests and documenting test results. Specifically, the FTC group did not
identify testing errors in four site reviews, did not perform steps in accordance with
their program in three site reviews, and did not adequately document their work in
two site reviews. As a result, OIG did not always agree with the FTC group's site
results. We did not make any recommendations in the report but provided our
observations to the IPA firm and Postal Service management throughout the year.




                                                 4
